Washington, D.C. 20530

May 5, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Raynal King and Ross R. Howard, III v. United States of America,
S.Ct. No. 20-7609
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on March 25, 2021. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on May 13, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 14, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7609
KING, RAYNAL AND ROSS, HOWARD R., III
USA

DAN GOLDBERG
FEDERAL PUBLIC DEFENDER
1000 WALNUT SUITE 600
KANSAS CITY, MO 64106
816-471-8282
DAN_GOLDBERG@FD.ORG

